                                                                  C-IN-FWS-0051-2003


             United States Department of the Interior
                            Office of Inspector General
                                  Washington, D.C. 20240




                                                                      February 24, 2003


Memorandum

To:        Director, U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Independent Accountants’ Report on the “Application of Agreed-Upon
           Procedures Aquatic Resources Trust Fund” (No. 2003-I-0017)

       Attached is the Independent Accountants’ Report on the “Application of Agreed-
Upon Procedures Aquatic Resources Trust Fund.” The report was prepared at the
request of the Fish and Wildlife Service by KPMG LLP (KPMG) under contract with the
Department of the Interior, Office of Inspector General.

        KPMG is responsible for the report, dated September 17, 2002. We monitored
the progress of the engagement at key points, reviewed KPMG’s report and selected
related working papers, and inquired of its representatives. We continue to review
KPMG’s work as the final information is provided to us. Our review disclosed no
instances where KPMG did not comply, in all material respects, with the Government
Auditing Standards.

       If you have any questions concerning this matter, please contact me at (202) 208-
5512 or Mr. Curtis Crider, Director of Financial Audits, at (202) 208-5724.


Attachment

cc:     Assistant Secretary for Fish and Wildlife and Parks
        Chief Financial Officer, U.S. Fish and Wildlife Service
        Director, Office of Financial Management
        Audit Liaison Officer, Fish and Wildlife and Parks
        Audit Liaison Officer, U.S. Fish and Wildlife Service
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
                                                                                                       ATTACHMENT



           Suite 2700
           707 Seventeenth Street
           Denver, CO 80202




                                                              Independent Accountants’ Report on the
                                                              Application of Agreed-Upon Procedures


To the Inspector General of the
U.S. Department of the Interior:

We have performed the procedures enumerated in exhibit I, which were agreed to by the Inspector General,
U.S. Department of the Interior and the U.S. Fish and Wildlife Service, solely to assist the U.S. Department
of the Interior and the U.S. Fish and Wildlife Service in determining the accuracy of the Aquatic Resources
Trust Fund (ARTF) liability as of September 30, 2001.
This agreed-upon procedures engagement was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these procedures
is solely the responsibility of the Inspector General, U.S. Department of the Interior and the U.S. Fish and
Wildlife Service. Consequently, we make no representation regarding the sufficiency of the procedures
described in exhibit I, either for the purpose for which this report has been requested or for any other
purpose. The procedures we performed and the associated findings are presented in exhibit I.

We were not engaged to, and did not, conduct an examination, the objective of which would be the
expression of an opinion on the financial statements of the U.S. Fish and Wildlife Service or the Aquatic
Resources Trust Fund. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.
This report is intended solely for the use of the Inspector General, U.S. Department of the Interior and the
U.S. Fish and Wildlife Service, and should not be used by those who have not agreed to the procedures and
taken responsibility for the sufficiency of the procedures for their purposes.




September 17, 2002




           KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
           a member of KPMG International, a Swiss association.
                                                                                                      Exhibit I
                        Attachment to the Independent Accountants’ Report on the
                                Application of Agreed-Upon Procedures
                                     Aquatic Resources Trust Fund



Procedures and Findings
1.   We agreed the Aquatic Resources Trust Fund (ARTF) receipts, as reported, for the years 1985 through
     2001, as disclosed on schedule A, to the U.S. Department of Treasury, income statements of the ARTF
     prepared by the Bureau of the Public Debt (BPD) for each respective fiscal year.

     We found such amounts to be in agreement.
2.   We agreed the adjustments to the ARTF receipts, as disclosed on schedule B, to the income statements and
     balance sheets of the ARTF prepared by the BPD as of and for the years ended September 30, 1987 through
     1993, as applicable.

     We found such amounts to be in agreement.
3.   We agreed the cash basis adjustments, as disclosed on schedule C, to the balance sheet of the ARTF
     prepared by the BPD as of September 30, 2001.

     We found such amounts to be in agreement.
4.   We agreed the ARTF apportionments for the fiscal years 1985 through 2001, as disclosed on schedule D, to
     U.S. Fish and Wildlife Service Division of Budget apportionment documents.

     We found such amounts to be in agreement.

5.   We agreed the U.S. Army Corps of Engineers adjustment, as disclosed on schedule D, to the BPD
     memorandum dated May 14, 2002 indicating $1,476,823 was apportioned to the U.S. Army Corps of
     Engineers.

     We found such amount to be in agreement.
6.   We recalculated ARTF receipts available for apportionment as of September 30, 2001, as disclosed on
     schedule E, by subtracting the adjustments disclosed on schedule B and the cash basis adjustments disclosed
     on schedule C from the ARTF receipts disclosed on schedule A.

     We recalculated receipts available for apportionment of $4,789,496,476, and agreed amount to schedule E.
7.   We recalculated the difference between the receipts available for apportionment determined in procedure 6
     above, and the amounts apportioned through September 30, 2001, as disclosed on schedule D.

     We recalculated the difference of $484,039,559 and agreed amount to schedule E.
8.   We agreed the fiscal year 2002 apportionment of $482,979,991, as disclosed on schedule E, to the ARTF
     receipts for fiscal year 2001 as listed on the income statement of the ARTF prepared by the BPD for the
     year ended September 30, 2001.


                                                       2
     We found such amount to be in agreement.
9.   We subtracted the fiscal year 2002 apportionment determined in procedure 8, above, from the difference
     between the receipts available for apportionment and the amounts apportioned through September 30, 2001,
     determined in procedure 7, above.

     We recalculated a difference of $1,059,568, and agreed the amount to schedule E.
10. We recalculated the allocations of the apportionment difference, disclosed on schedule F, between the U.S.
    Fish and Wildlife Service and the U.S. Army Corps of Engineers, based on apportionment percentages of
    87.4% and 12.6%, respectively, used by the U.S. Fish and Wildlife Service for the ARTF, as disclosed on
    schedule F.
     We recalculated allocations of $926,062 and $133,506 for the U.S. Fish and Wildlife Service and the U.S.
     Army Corps of Engineers, respectively, and agreed these amounts to schedule F.
11. We agreed the non-expenditure transfer amounts, as disclosed on schedule G, to the income statement
    amounts of the ARTF prepared by the BPD.

     We found such amounts to be in agreement.
12. We recalculated the ARTF liability, by agency, as of September 30, 2001, as disclosed on schedule H, by
    subtracting the apportionment differences on schedule F and the nonexpenditure transfers on schedule G
    from the apportionments on schedule D.
     We recalculated the total ARTF liability, U.S. Fish and Wildlife Service liability, U.S. Army Corps of
     Engineers liability, and U.S. Coast Guard liability, as of September 30, 2001, to be $747,225,823,
     $410,282,718, $266,930,909, and $70,012,196, respectively, and agreed these amounts to schedule H.




                                                      3
                                                                                          Schedule A
                                U.S. DEPARTMENT OF THE INTERIOR
                                  U.S. FISH AND WILDLIFE SERVICE
                                   Aquatic Resources Trust Fund Receipts
                                           Fiscal years 1985 to 2001


                                                                        Basis of
                             Fiscal year           Receipts            accounting
                                1985         $   122,167,378             Cash
                                1986             141,015,884             Cash
                                1987             161,073,398             Cash
                                1988             189,291,671            Accrual
                                1989             208,761,161            Accrual
                                1990             194,342,183            Accrual
                                1991             263,216,429            Accrual
                                1992             261,383,588            Accrual
                                1993             249,151,093            Accrual
                                1994             284,841,052            Accrual
                                1995             304,536,706            Accrual
                                1996             350,272,093            Accrual
                                1997             372,765,838            Accrual
                                1998             371,937,134            Accrual
                                1999             419,899,211            Accrual
                                2000             435,874,242            Accrual
                                2001             460,531,430            Accrual
                                             $ 4,791,060,491


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                     4
                                                                                                 Schedule B
                                  U.S. DEPARTMENT OF THE INTERIOR
                                   U.S. FISH AND WILDLIFE SERVICE
                        Aquatic Resources Trust Fund Adjustments Affecting Receipts
                                          As of September 30, 2001


Beginning net assets, October 1, 1987                                                     $    301,813,221
Less: Ending net assets, September 30, 1987                                                   (299,526,938)
              Correction of an error                                                             2,286,283
Ending net assets, October 1, 1990                                                             427,966,907
Less: Beginning net assets, September 30, 1989 (note 1)                                       (430,595,776)
              Correction of an error                                                            (2,628,869)
1992 adjustment per BPD note on 1993 balance sheet of the ARTF                                    (772,429)
Miscellaneous                                                                                        1,546
              Total adjustments                                                           $     (1,113,469)
Note 1: Detail of fiscal year 1989 Activity, per ARTF financial statement:
  Beginning net assets, October 1, 1988                                                   $   368,620,236
  Excess receipts over nonexpenditure transfers, fiscal year 1989                              64,761,160
  Transfer to U.S. Department of the Interior, fiscal year 1989                                (2,785,620)
  Ending net assets, September 30, 1989                                                   $   430,595,776


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                      5
                                                                                              Schedule C
                                U.S. DEPARTMENT OF THE INTERIOR
                                  U.S. FISH AND WILDLIFE SERVICE
                           Aquatic Resources Trust Fund Cash Basis Adjustments
                                      Year ended September 30, 2001


2001 Accrued interest                                                                     $     (2,745)
2001 Amortization                                                                             (447,802)
             Total cash basis adjustments                                                 $   (450,547)


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                    6
                                                                                             Schedule D
                               U.S. DEPARTMENT OF THE INTERIOR
                                 U.S. FISH AND WILDLIFE SERVICE
                               Aquatic Resources Trust Fund Apportionments
                                         Fiscal years 1985 to 2001


                                                                          U.S. Army
                                                     U.S. Fish and         Corps of           U.S.
                                     Total          Wildlife Service      Engineers        Coast Guard
         Fiscal year             apportionment      apportionment       apportionment     apportionment
1985                         $              —                    —                 —                —
1986                               122,167,377          122,167,377                —                —
1987                               141,015,883          141,015,883                —                —
1988                               161,073,397          161,073,397                —                —
1989                               186,662,802          186,662,802                —                —
1990                               205,639,045          205,639,045                —                —
1991                               193,603,233          193,603,233                —                —
1992                               262,578,573          229,493,673        33,084,900               —
1993                               261,801,829          223,628,719        33,173,110        5,000,000
1994                               250,114,917          207,675,817        34,939,100        7,500,000
1995                               277,440,736          234,983,204        34,957,532        7,500,000
1996                               304,536,706          256,165,082        38,371,624       10,000,000
1997                               350,272,093          296,139,093        44,133,000       10,000,000
1998                               377,306,838          309,766,123        47,540,715       20,000,000
1999                               371,937,134          261,073,055        46,864,079       64,000,000
2000                               419,899,211          302,991,911        52,907,300       64,000,000
2001                               417,930,320          301,271,100        52,659,220       64,000,000
U.S. Army Corps of Engineers
  adjustment                         1,476,823                  —            1,476,823             —
           Total              $ 4,305,456,917        3,633,349,514        420,107,403      252,000,000


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                    7
                                                                                                 Schedule E
                                U.S. DEPARTMENT OF THE INTERIOR
                                  U.S. FISH AND WILDLIFE SERVICE
                               Aquatic Resources Trust Fund Apportionments
                                           As of September 30, 2001


ARTF receipts – schedule A                                                                $   4,791,060,491
Less: Adjustments – schedule B                                                                   (1,113,468)
Less: Cash basis conversion – schedule C                                                           (450,547)
Receipts available for apportionment – cash basis                                             4,789,496,476
Less: Amounts apportioned through September 30, 2001 – schedule D                             (4,305,456,917)
Difference                                                                                      484,039,559
Less: Fiscal year 2002 apportionment                                                           (482,979,991)
Difference to be apportioned                                                              $        1,059,568


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                      8
                                                                                              Schedule F
                                U.S. DEPARTMENT OF THE INTERIOR
                                  U.S. FISH AND WILDLIFE SERVICE
                               Aquatic Resources Trust Fund Apportionments
                                          As of September 30, 2001


Total apportionment difference – schedule E                                               $   1,059,568
18% of $1,059,568                                                                              190,722
70% of 18% to U.S. Army Corps of Engineers                                                     133,506
U.S. Fish and Wildlife Service allocation (87.4%)                                         $    926,062
U.S. Army Corps of Engineers allocation (12.6%)                                                133,506
             Total amount to be apportioned                                               $   1,059,568


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                    9
                                                                                             Schedule G
                                U.S. DEPARTMENT OF THE INTERIOR
                                   U.S. FISH AND WILDLIFE SERVICE
                                       Aquatic Resources Trust Fund
                                       Year ended September 30, 2001


                                                                          U.S. Army
                                                      U.S. Fish and        Corps of             U.S.
                                        Total        Wildlife Service     Engineers        Coast Guard
                                   nonexpenditure    nonexpenditure     nonexpenditure    nonexpenditure
         Fiscal year                  transfers         transfers          transfers         transfers
1985                           $            —                     —                 —               —
1986                                 32,000,000           32,000,000                —               —
1987                                 93,000,000           93,000,000                —               —
1988                                125,000,000          125,000,000                —               —
1989                                144,000,000          144,000,000                —               —
1990                                181,000,000          181,000,000                —               —
1991                                193,000,000          193,000,000                —               —
1992                                239,200,000          236,000,000         3,200,000              —
1993                                249,100,000          237,000,000         7,100,000       5,000,000
1994                                229,860,000          213,000,000         9,360,000       7,500,000
1995                                244,840,900          232,490,900        12,350,000              —
1996                                252,466,258          220,966,258        14,000,000      17,500,000
1997                                252,975,700          232,975,700        10,000,000      10,000,000
1998                                291,800,000          249,000,000        22,800,000      20,000,000
1999                                299,863,853          257,000,000        29,000,000      13,863,853
2000                                355,183,951          282,060,000        22,500,000      50,623,951
2001                                376,000,000          295,500,000        23,000,000      57,500,000
                               $ 3,559,290,662       3,223,992,858        153,310,000      181,987,804


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                    10
                                                                                              Schedule H
                                U.S. DEPARTMENT OF THE INTERIOR
                                   U.S. FISH AND WILDLIFE SERVICE
                                   Aquatic Resources Trust Fund Liability
                                          As of September 30, 2001


                                                                            U.S. Army
                                                      U.S. Fish and          Corps of          U.S.
                                       Total         Wildlife Service       Engineers       Coast Guard
Apportionments – schedule D    $   4,305,456,917          3,633,349,514     420,107,403      252,000,000
Apportionment differences,
  allocated – schedule F                1,059,568              926,062          133,506              —
Receipts available for
  apportionment                    4,306,516,485          3,634,275,576     420,240,909      252,000,000
Less: Nonexpenditure
  transfers – schedule G           (3,559,290,662)    (3,223,992,858)       (153,310,000)   (181,987,804)
ARTF liability as of
  September 30, 2001           $     747,225,823           410,282,718      266,930,909       70,012,196


See accompanying independent auditors’ report on application of agreed-upon procedures.




                                                     11
